                       U.S. Environmental Protection Agency 	                                                 11-P-0725
                                                                                                      September 30, 2011
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review            Region 9 Technical and Computer Room
The U.S. Environmental
                                  Security Vulnerabilities Increase Risk to
Protection Agency (EPA),          EPA’s Network
Office of Inspector General
(OIG), conducted this audit to
                                   What We Found
identify technical
vulnerabilities associated with
                                  OIG technical vulnerability scans conducted at Region 9 headquarters revealed a
the Agency’s network devices
                                  multitude of high-risk and medium-risk vulnerabilities. These vulnerabilities were
located in EPA’s Region 9
                                  identified on Region 9 servers, desktops, and printers. The exploitation of
headquarters building, and to
                                  unidentified and unremediated vulnerabilities could greatly impact the network
assess the security posture of
                                  security posture of Region 9 headquarters and/or the entire EPA network by
the Region 9 computer room.
                                  exposing Agency data, information, and configurations to unauthorized access.
Results of this audit were
provided to the appropriate
                                  The OIG physical and environmental control review of the Region 9 computer
EPA officials who can then
                                  room found that sufficient protections were not in place to safeguard critical
promptly remediate and/or
                                  information technology assets and associated data from the risk of damage and/or
document their planned
                                  loss.
actions to resolve the
identified technical
                                   What We Recommend
vulnerabilities and computer
room security findings.
                                  We recommend that the Senior Information Official, Region 9:
Background
                                      •   Remediate high-risk and medium-risk technical vulnerabilities
This audit was conducted in           •   Remediate physical and environmental control deficiencies
support of the annual audit of
EPA’s compliance with the         The full report is not available to the public due to the sensitive nature of its
Federal Information Security      technical findings.
Management Act.



For further information,
contact our Office of
Congressional and Public
Affairs at (202) 566-2391.
